          NAVY MANAGEMENT CONTROLS OVER
       GENERAL AND FLAG OFFICER QUARTERS COSTS


Report No. D-2001-027               December 26, 2000



             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

CNO                   Chief of Naval Operations
GFOQ                  General and Flag Officer Quarters
M&R                   Maintenance and Repair
NAS                   Naval Air Station
NAVFAC                Naval Facilities Engineering Command
NSA                   Naval Support Activity
                       Office of the Inspector General, DoD
Report No. D-2001-027                                               December 26, 2000
  (Project No. D1999CG-0085.001)

                      Navy Management Controls over
                   General and Flag Officer Quarters Costs

                                   Executive Summary

Introduction. This report is one in a series of reports on general and flag officer
quarters (GFOQs). The Navy maintains approximately 153 GFOQs and has spent
approximately $9.5 million and $9.2 million during FYs 1998 and 1999 respectively for
maintenance and repair. This report focuses specifically on Navy management controls
over maintenance and repair costs. This audit was initiated in response to the
Department of Defense Appropriations Act, 2000, section 8114, which requires the
Inspector General, Department of Defense, to conduct an audit of the Services’
compliance with applicable appropriations law, Office of Management and Budget
Circulars, and Under Secretary of Defense (Comptroller) directives governing the
funding for maintenance and repairs to GFOQs.

Objectives. The overall objective was to evaluate the adequacy of Navy management
controls over GFOQ maintenance and repair costs.

Results. The Navy’s management controls over recording of GFOQ operations and
maintenance costs were adequate but were not fully implemented. Specifically, housing
personnel improperly charged operations and maintenance costs at 30 of the 40 GFOQs
reviewed. Additionally, supporting documentation was not always available to justify the
costs recorded. As a result, the Navy’s accounting for GFOQ costs was unreliable.
Consequently, the Navy’s reports on GFOQ costs to the Congress and to the Office of the
Secretary of Defense were inaccurate. Also, statutory, regulatory, or administrative
violations may have occurred at six of the seven activities reviewed.

Summary of Recommendations. We recommend that the Assistant Secretary of the
Navy (Financial Management and Comptroller) initiate actions to investigate potential
statutory, regulatory and administrative violations; perform a comprehensive review of
FY 2000 GFOQ operations and maintenance costs to ensure reporting accuracy; revise
FYs 1998 and 1999 GFOQ costs reports for the errors identified; and require periodic
evaluations of GFOQ housing operations and quarterly detailed cost reporting. We also
recommend that the Chief of Naval Operations direct the Commander, Naval Facilities
Engineering Command and housing officials to initiate a complete review of all grounds
maintenance costs to ensure that costs are charged to the GFOQ occupant unless a
waiver has been granted and to comply with current Navy guidance on grounds
maintenance.

Management Comments. The Department of the Navy generally concurred with the
recommendations. The Navy stated that they would review the audit support data for
those GFOQs that were identified; however, they have determined that there appear to be
no threshold violations of statute for those quarters. The Navy stated that they would
review the validity of the FYs 1998 and 1999 GFOQ charges for the 21 GFOQs that we
identified. The Navy further stated that they have begun a comprehensive review of
family housing management as well as the recording, reporting, and review of operation
and maintenance costs at those GFOQs. Cost errors and omissions identified in the audit
report will be corrected and Congressional reports will updated as necessary. The Navy
recognized that management controls over GFOQs must be strengthened and stated that
management control reviews will be initiated and performed on a 3-year cycle. Further
the annual cost reporting requirements will change to a quarterly reporting requirement
and the associated costs will be reviewed and certified as to the accuracy of each charge.
Finally, the Navy will initiate a complete review of all grounds maintenance costs and
will ensure that costs are charged to the GFOQ occupant unless a waiver has been
granted.




                                            ii
Table of Contents

Executive Summary                                                      i


Introduction
     Background                                                       1
     Objectives                                                       2

Finding
     Implementation of Management Controls Over GFOQ Cost Recording    3

Appendixes
     A. Audit Process
          Scope                                                       13
          Methodology                                                 13
          Prior Coverage                                              14
     B. Definitions and Terms                                         15
     C. GFOQs Reviewed                                                17
     D. Report Distribution                                           18

Management Comments
     Department of the Navy                                           21
Background
    The Department of Defense Appropriations Act, 2000, section 8119, required the
    Inspector General, DoD, to conduct an audit of compliance with applicable laws
    and regulations governing funding for maintenance and repair (M&R) of general
    and flag officer quarters (GFOQ). A series of audits has resulted. In Inspector
    General, DoD, Report No. D-2000-071, “Maintenance and Repair of DoD
    General and Flag Officer Quarters,” January 27, 2000, we evaluated the use of
    funds other than family housing funds for M&R of GFOQs, and determined that
    potential violations of appropriations law may have occurred.
    This report addresses the Navy’s management controls over GFOQ costs. The
    Naval Facilities Engineering Command (NAVFAC) is responsible for
    administering the Navy family housing program, to include providing policy
    direction and guidance. The Navy family housing offices are responsible for
    managing the operations of 153 GFOQs throughout the world. Seventy-one of
    the 153 GFOQs are designated as historical properties. The Navy spent
    approximately $9.5 million and $9.2 million on GFOQ M&R in FYs 1998 and
    1999 respectively. The following chart depicts average GFOQ M&R costs for
    Navy historical and non-historical properties as reported over the last eight fiscal
    years (FY 1999 reflects estimated costs).

                          Navy Historical and Non-historical GFOQ M&R Averages

    $ 1 2 0 ,0 0 0 .0 0




    $ 1 0 0 ,0 0 0 .0 0




     $ 8 0 ,0 0 0 .0 0




     $ 6 0 ,0 0 0 .0 0




     $ 4 0 ,0 0 0 .0 0




     $ 2 0 ,0 0 0 .0 0




              $ 0 .0 0
                           FY 92   FY 93   FY 94    FY 95                FY 96            FY 97      FY 98   FY 99

                                                   N o n - H is t o r ic a l     H is t o r ic a l




    The large increase in the average M&R spent on the historical GFOQs during FY
    1998 and FY 1999 is due to the reimbursement of base operations and
    maintenance funds from family housing funds for work performed on three
    GFOQs totaling approximately $3.6 million. Unique terms associated with
    GFOQ operations and costs are defined in Appendix B.




                                                   1
Objectives
     The overall objective was to evaluate the adequacy of the Navy’s management
     controls over GFOQ M&R costs. See Appendix A for a discussion of the scope,
     methodology, and prior audit coverage.




                                       2
           Implementation of Management Controls
           Over GFOQ Cost Recording
           Navy management controls over GFOQ operations and maintenance costs
           were adequate but were not fully implemented. Navy housing personnel
           improperly charged operations and maintenance costs at 30 of the 40
           GFOQs reviewed. Additionally, supporting documentation was not
           always available to justify the costs recorded. Those conditions occurred
           because Navy housing management officials did not provide adequate
           oversight of GFOQ cost recording to ensure the effectiveness of
           management controls. As a result, the Navy’s accounting for GFOQ costs
           was unreliable. Consequently, the Navy’s reports on GFOQ costs to the
           Congress and to the Office of the Secretary of Defense were inaccurate.
           Also, investigations of potential statutory, regulatory, or administrative
           violations were needed at six of the seven activities reviewed.


Guidance on GFOQ Housing Management
    DoD Directive 5010.38. "Management Control Program," August 26, 1996,
    requires DoD managers to implement a comprehensive strategy for management
    controls that provides reasonable assurance that programs are efficiently and
    effectively carried out in accordance with applicable laws and to continuously
    monitor and evaluate the adequacy of those controls.

    DoD Instruction 5010.40. “Management Control Procedures,” August 28,
    1996, requires that each DoD Component develop a management control
    program that establishes a management control process, maintains an inventory
    of assessable units, and evaluates the effectiveness of management controls
    through a process or mechanism that provides feedback for corrective actions.

    DoD 7000.14-R. “Financial Management Regulation,” volume 6, “Reporting
    Policy and Procedures,” provides guidance for establishing and maintaining
    uniform budget program accounts for the accumulation of obligations incurred for
    the family housing operations and maintenance program. The accounts discussed
    in this report include services, furnishings, utilities, and maintenance of real
    property facilities.

    SECNAVINST 5200.35D. “Department of the Navy Management Control
    Program,” December 10, 1997, provides policy for the Department of the Navy
    management control program, and clarifies management controls and
    accountability. The requirement for clear and readily available documentation is
    also set forth in this guidance. The guidance allows the commanders and
    managers at the activity level to decide what controls are necessary to meet the
    goals of the program. However, the guidance removes the requirements to
    perform vulnerability assessments and management control reviews in addition
    to eliminating many of the reporting requirements.



                                        3
    OPNAVINST, 11101.19E. “Management of Flag and General Officer Quarters,”
    August 7, 1996, provides policy regarding the management of public quarters
    assigned to general and flag officers. Specifically, this instruction outlines annual
    cost limitations on GFOQ M&R and minor improvements at $25,000 and $3,000
    respectively. This instruction also provides guidance on the occupant
    responsibility to perform grounds maintenance within one half acre of the GFOQ.

    OPNAVINST, 11101.29. “Assignment of Authority and Responsibilities for
    Family Housing,” March 31, 1970, assigns authority and responsibilities for
    providing and administering family housing facilities and for executing family
    housing programs.

    NAVFAC P-930. “Navy Family Housing Manual,” July 1999, provides guidance
    on the organization, management, programming, acquisition, and staffing of Navy
    family housing. It contains specific guidance on the classification of furnishings,
    M&R, and improvements as they relate to Navy family housing.


Accuracy of GFOQ Cost Recording
    Management controls should have ensured accurate recording of GFOQ costs,
    however, Navy housing personnel improperly charged operations and
    maintenance costs at 30 of the 40 GFOQs reviewed. Inaccuracies included
    improper cost classifications, cost omissions, and mathematical errors. Also, the
    Navy incorrectly recorded grounds maintenance costs that should have been
    charged to GFOQ occupants. Additionally, supporting documentation was not
    always available to verify the accuracy of costs recorded. A list of the 40 GFOQs
    that we reviewed is in Appendix C.

    Cost Classifications. Navy housing personnel did not properly classify GFOQ
    costs totaling $103,250 in accordance with DoD financial management
    regulations. DoD 7000.14R, volume 6, section 0903, specifies the budget
    program account structure and defines the basic scope and content of the accounts
    used for classifying family housing costs. Our analysis shows that costs incurred
    for appliances and kitchen renovations at GFOQ A, Naval Base Pearl Harbor,
    valued at $34,360, were improperly classified to the furnishings account. The
    costs should have been charged to the M&R account. In another instance, at
    GFOQ V, Naval Support Activity (NSA), Washington, D.C., M&R costs totaling
    $4,000 were incorrectly charged to the services and utilities accounts. Table 1
    provides a detailed breakdown of the GFOQ costs that were improperly classified.




                                          4
                         Table 1. Improper GFOQ Cost Classifications
            Improper Classification                     1998              1999                Total
 Furnishings
  Naval Base Pearl Harbor                               $43,860          $25,570              $69,430 1
  Naval Base San Diego                                      948            4,648                5,596
  NAS Corpus Christi                                          0              943                  943
  NSA Washington, D.C.                                      966                0                  966
     Furnishings Total                                  $45,774          $31,161              $76,935
 Services
  NSA Washington, D.C.                                      $2,038         $       0           $2,038
  NAS Corpus Christi                                             0             5,144            5,144
     Services Total                                         $2,038         $5,144              $7,182
 Utilities
  NSA Washington, D.C.                                      $1,962         $      0            $1,962
     Utilities Total                                        $1,962         $      0            $1,962
 Maintenance and repair
  Naval Base Pearl Harbor                               $      292       $ 4,796 2        $     5,088
  Naval Base San Diego                                       4,891 2           0                4,891
  NSA New Orleans                                            3,078 2           0                3,078
  NSA Washington, D.C.                                           0         4,114 2              4,114
     Maintenance and repair total                       $ 8,261          $ 8,910          $ 17,171
      Total costs improperly classified                 $58,035          $45,215          $103,250
 1
  Included in this total are costs for five shutter installation projects totaling $27,360. Each of
   these projects had a cost exceeding $3,000, and fit the description of an improvement, as
   defined in the NAVFAC P-930. As such, they were subject to the need for congressional
   approval, as required by OPNAVINST 11101.19E.
 2
  These costs represented improvement projects exceeding $3,000, which were classified as
  dwelling M&R, when they should have been classified as minor improvements. Had they
  been classified properly, they would have been subject to congressional approval, as required
  by OPNAVINST 11101.19E.


Cost Omissions. Housing officials at three of the seven activities did not
completely identify and record complete GFOQ costs associated with 18 GFOQs
totaling $56,522. For example, at GFOQ K, Ford Island, Naval Base Pearl
Harbor, costs totaling $5,232 for work performed as part of the change of
occupancy and the relocation of a washer and dryer were omitted on the GFOQ
cost report. Table 2 shows the combined costs by activity for the 18 GFOQs
whose operations and maintenance accounts were understated as a result of cost
omissions.




                                              5
                        Table 2. GFOQ Costs Omitted
      Budget Program Account/
              Activity                    FY 1998       FY 1999         Total
 Maintenance and repair
  Naval Base Pearl Harbor                  $13,670          $357       $14,027
  Naval Base San Diego                       2,194        26,735        28,929
  NAS Corpus Christi                           681           284           965
   Total maintenance and repair
   costs omitted                           $16,545       $27,376       $43,921
 Furnishings
  Naval Base Pearl Harbor                   $3,617        $6,702       $10,319
  NAS Corpus Christi                           179             0           179
   Total furnishings costs omitted          $3,796        $6,702       $10,498
 Services
  Naval Base Pearl Harbor                   $1,444        $ 659        $ 2,103
    Total services costs omitted             1,444           659         2,103
     Total costs omitted                   $21,785       $34,737       $56,522

Mathematical Accuracy. Six of the seven activities reviewed had cost recording
inaccuracies that resulted from mathematical errors. The errors consisted of
incorrect percentage rates applied, addition errors, and number transpositions.
For example, housing personnel applied the incorrect percentage rate for
administrative fees on credit card use for ten different transactions at GFOQ 1402
Orion Court, Naval Base San Diego, which resulted in a $556 understatement for
the M&R account.

Grounds Maintenance Costs. The Navy paid grounds maintenance costs for
16 GFOQs that should have been paid by the occupants. The occupant is
responsible for grounds maintenance within one half acre of the housing unit
according to OPNAVINST 11101.19E, unless the Chief of Naval Operations
(CNO) grants a waiver. The CNO had not made a waiver decision for 15 of the
16 GFOQs identified. The CNO denied a waiver request for the remaining GFOQ
B Naval Medical Center, Naval Base San Diego on November 1, 1993, however,
the Navy still paid grounds maintenance costs of $1,511 for FYs 1998 and 1999.
The costs associated with the other 15 GFOQs could not be quantified because
housing managers could not isolate costs attributable to the occupant’s one half
acre responsibility from total grounds maintenance costs. Table 3 shows the 16
GFOQs for which grounds maintenance costs should have been paid by the
occupants instead of the Navy.




                                    6
                Table 3. Unauthorized Grounds Maintenance
                    Activity                        GFOQ
            Naval Base Norfolk              SP 22
            Naval Base Pearl Harbor         C
                                            A
                                            201 Marine Barracks
                                            K Ford Island
                                            23 Makalapa
                                            28 Makalapa
                                            32 Makalapa
                                            34 Makalapa
                                            35 Makalapa
            Naval Base San Diego            B Naval Medical Center
                                            303 Silvergate
                                            355 Silvergate
                                            1401 Orion, Miramar
                                            1402 Orion, Miramar
            NSA New Orleans                 D

    Supporting Documentation. The Navy family housing offices at all seven
    activities did not consistently maintain adequate supporting documentation of
    GFOQ costs as required by SECNAVINST 5200.35D. For example, the Navy
    could not provide documentation to support a charge of $3,143 for the purchase
    and installation of ceiling fans and outdoor spotlights for GFOQ 1402 Orion
    Court, Naval Base San Diego. The only support documentation in the files was a
    work request form for material costs of $150. Without complete documentation, a
    complete accounting of total cost cannot be determined or verified.


Management Oversight
    Navy housing management officials did not provide adequate oversight of GFOQ
    cost recording to ensure the effectiveness of management controls. Specifically,
    GFOQ housing supervisors did not consistently perform reviews of GFOQ costs
    to ensure that all costs were identified, properly classified, and recorded in
    accordance with applicable laws and departmental regulations.

    Housing Office Supervisory Reviews. GFOQ housing supervisors did not
    consistently perform reviews on GFOQ cost recording. The errors we identified
    were indicative that GFOQ basic supervisory reviews, data edit checks, or
    reconciliations of GFOQ cost data had not been performed. Continuous
    monitoring and evaluation is a key element of management control standards that
    should have prevented inaccurate recording.


                                        7
We asked family housing officials if any internal or external reviews had been
performed within the last two years to assess the overall level of risk associated
with GFOQ costs and evaluate the effectiveness of management controls.
Housing officials informed us that no reviews had been performed because they
viewed the level of risk associated with GFOQs as low. However, housing
officials were unable to provide any evidence that substantiated their risk
perception. Due to the historically high Congressional and media interests in
GFOQ costs, as well as frequent instances of questionable spending over the
years, we disagree that this is a low risk area.
NAVFAC Oversight. NAVFAC did not provide effective oversight of GFOQ
housing costs. NAVFAC did not perform adequate periodic reviews of
management controls, did not require sufficient GFOQ cost data for review, and
did not enforce the Navy’s guidance concerning grounds maintenance waivers.
        Periodic Reviews of Operations. OPNAVINST 11101.29 assigns
NAVFAC the responsibility to perform periodic reviews of the efficiency,
economy, and effectiveness of management, maintenance, and operation of family
housing at Navy activities. NAVFAC officials stated that their engineering field
divisions had conducted inspections of housing offices at the activity level.
However, the focus of those visits, now referred to as housing assistance visits,
concentrated on assisting the housing offices with issues and questions raised by
the housing officials, rather than on self-initiated evaluations of management
controls and operational effectiveness. NAVFAC’s ability to ensure compliance
with Navy housing guidance is limited without adequate reviews of management
controls. For example, NAVFAC was unaware that housing officials in San
Diego had continued to charge grounds maintenance costs for GFOQ B, Naval
Medical Center to the Navy instead of the GFOQ occupant, despite a waiver
being denied.
        GFOQ Cost Data Reviews. NAVFAC did not require sufficient GFOQ
cost data to review budget execution and program effectiveness and to effectively
exercise its oversight role. NAVFAC engineering field divisions currently receive
summary GFOQ cost reports on a quarterly basis. However, these summary cost
reports do not include enough detail to enable NAVFAC to identify and correct
cost reporting errors. Quarterly detailed cost reports already exist but are only
provided to the GFOQ occupant by the housing offices for review. These detailed
cost reports show line item expenses that comprise each of the GFOQ operation
and maintenance accounts. NAVFAC engineering field division offices could use
these reports to identify potential improper cost classifications, improvement
projects in excess of the $3,000 annual limitation, M&R costs in excess of the
annual $25,000 limitation, and other questionable costs. NAVFAC should require
detailed cost reports in order to manage the GFOQ housing budget and to provide
appropriate management oversight.
        Enforcement of Grounds Maintenance Guidance. NAVFAC officials did
not enforce Navy guidance concerning grounds maintenance costs. NAVFAC
instructed the housing offices to charge grounds maintenance costs to the Navy
instead of the occupant for those GFOQs awaiting a waiver decision. NAVFAC’s
actions did not comply with the requirements of OPNAVINST 11101.19E and were
in direct conflict with its oversight responsibilities to enforce housing regulations.


                                     8
Impacts of GFOQ Cost Recording Errors
    The Navy’s accounting for GFOQ costs was unreliable. Consequently, the
    Navy’s reports on GFOQ costs to the Congress and the DoD were inaccurate.
    Also, once necessary corrections to GFOQ cost recording were made, the Navy
    needed to determine whether statutory, regulatory, or administrative violations
    may have occurred at six of the seven activities reviewed.

    Reliability of GFOQ Costs. The Navy’s accounting for GFOQ costs was
    unreliable. Maintenance and repair costs were understated by $122,721.
    Furnishings, services, and utilities, were overstated by $64,657, $5,078 and
    $1,962 respectively. Further, because adequate supporting documentation was
    not maintained, we were unable to fully validate the GFOQ costs recorded at 29
    of the 40 GFOQs reviewed. Consequently, the Navy’s GFOQ cost reports to
    Congress and the Office of the Secretary of Defense were inaccurate. The Navy
    needs to improve its management controls over GFOQ cost recording in order to
    produce reliable cost reports. Both Congress and the DoD require accurate and
    reliable GFOQ cost information for use in decisionmaking.
    Potential Statutory, Regulatory or Administrative Violations. Corrections to
    GFOQ cost recording errors may reveal potential statutory, regulatory, or
    administrative violations at six of the seven activities reviewed. The Navy
    charged grounds maintenance costs to the Government for 16 GFOQs, instead of
    the occupants of those quarters, as required. The Navy’s actions may have
    resulted in a misuse of Navy Family Housing funds. Also, improper cost
    classification errors caused applicable budget limitations to be exceeded. Budget
    limitations for M&R were exceeded by $111,017. Congressional guidance and
    DoD policy require that M&R costs not exceed $25,000 per GFOQ annually
    without prior congressional notification and approval. At times, Congress does
    approve an M&R budget greater than $25,000 in one year, to fund major
    improvement projects. The housing office can exceed the approved amount by no
    more than $5,000 before additional notification is required. Table 4 shows those
    GFOQs with M&R costs exceeding the annual limitation based on our audited
    M&R costs.




                                        9
         Table 4. Maintenance and Repair (M&R) Costs in Excess of Budget Limitations
                                                                                         M&R in
                                                    Reported     Audited    Budget      Excess of
                   Activity/GFOQ                     M&R          M&R      Limitation   Limitation

                                             Fiscal Year 1998
     Naval Base Pearl Harbor
      A, FY 98                                   $157,847       $198,691   $159,500     $ 39,191
      23 Makalapa, FY 98                           24,729         27,994     25,000        2,994
     NAS Corpus Christi
      SOQ 1, FY 98                                   24,583       25,233     25,000          233
     NSA New Orleans
      E, FY 98                                       24,963       25,099     25,000           99
     NSA Washington, D.C.
      V, FY 98                                       25,000       29,000     25,000        4,000
        Total Costs in Excess of Budget
           Limitations for FY 1998                                                      $ 46,517

                                             Fiscal Year 1999
     Naval Base Pearl Harbor
      A, FY 99                                       24,554       26,590     25,000        1,590
      K Ford Island, FY 99                           17,906       26,701     25,000        1,701
     Naval Base San Diego
      355 Silvergate, FY 99                          24,996       25,179     25,000          179
      1402 Orion, FY 99                              24,388       35,202     25,000       10,202
      BC, NASNI, FY 99                               48,804       61,199     53,700        7,499
      V, NASNI, FY 99                                24,300       31,657     25,000        6,657
     NAS Corpus Christi
      SOQ 1, FY 991                                 295,688      300,272    263,600       36,672
           Total Costs in Excess of Budget
             Limitations for FY 1999                                                    $ 64,500
             Grand Total                                                                $111,017
     1
     The $295,688 shown in the reported M&R column represents the M&R amount listed on the
     corrected annual GFOQ Management Report submitted after our prior audit. Of the $36,672
     exceeding the budget limitation, $4,584 was identified during this audit.



Management Actions
    The Navy is in the process of drafting new guidance on GFOQs. NAVFAC
    officials stated that draft guidance under review would reduce the limit on M&R
    costs to $20,000 annually instead of $25,000.



Conclusion
    Neither the Navy nor the GFOQ occupants were well served by poor cost
    accounting and lax application of management controls. The conditions identified
    during the audit could have been identified and corrected had housing offices

                                               10
    established and consistently implemented standard operating procedures for
    reviewing the accuracy of GFOQ cost data and ensured compliance with
    applicable laws and regulations. Similarly, the housing offices would be more apt
    to verify accuracy and compliance if NAVFAC held those offices accountable by
    periodically reviewing the effectiveness of management controls and housing
    office performance in managing GFOQs.



Recommendations, Management Comments, and Audit
Response
    Revised Recommendation. As a result of subsequent discussions with the Navy
    and management comments, we revised the wording of Recommendation 1.b. to
    limit the review required by the Navy of prior year GFOQ operation and
    maintenance costs.
    1. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller):

          a. Initiate actions to investigate potential statutory, regulatory or
    administrative violations for the following GFOQs:

                  •   Naval Base Norfolk, Virginia, GFOQ SP-22;

                  •   Naval Base Pearl Harbor, Hawaii, GFOQs A, C, K, 23, 28,
                      32, 34, 35, and 201;

                  •   Naval Base San Diego, California, GFOQs 303, 355, B
                      Naval Medical Center, 1401, 1402, V and BC;

                  •   Naval Air Station Corpus Christi, Texas, GFOQ SOQ-1;

                  •   Naval Support Activity, New Orleans, Louisiana, GFOQs D
                      and E; and

                  •   Naval Support Activity, Washington, D.C., GFOQ V.

    Management Comments. The Department of the Navy concurred in principle
    and stated that they would review the audit support data for the GFOQs identified.
    They have already determined that there appears to be no threshold violations of
    statute for those quarters.

            b. Perform a comprehensive review of operations and maintenance
    costs for all GFOQs for FY 2000 and the 21 GFOQs identified in this report
    for FYs 1998 and 1999, to ensure that costs were incurred as authorized,
    classified correctly, completely captured, recorded accurately, and
    sufficiently documented.



                                        11
Management Comments. The Department of the Navy concurred and stated that
they will review the validity of the FYs 1998 and 1999 GFOQ charges for the 21
GFOQs that we identified. The Navy further stated that they have begun a
comprehensive review of the family housing management and the recording,
reporting, and review of operation and maintenance costs at those GFOQs.
       c. Ensure that GFOQ costs have been corrected for FYs 1998 and
1999, and congressional reporting of GFOQ costs are updated to reflect
accounting error corrections.
Management Comments. The Department of the Navy concurred and stated that
cost errors and omissions for FYs 1998 and 1999 for the 21 GFOQs identified in
the audit report will be corrected and that the office of the Assistant Secretary of
the Navy (Installation and Environment) will ensure that any required updates to
Congressional reports are made.
       d. Require periodic evaluations of the effectiveness of GFOQ housing
management controls to ensure compliance with applicable laws and
regulations.
Management Comments. The Department of the Navy concurred and stated that
the Department recognizes that management controls over GFOQs must be
strengthened. The Navy further stated that of the Assistant Secretary of the Navy
(Installation and Environment) will require such reviews and that the Navy
Facilities Engineering Command, in coordination with the management
commands, will perform those reviews on a minimum 3-year cycle.
        e. Direct the Commander, Naval Facilities Engineering Command to
require all Navy housing offices to submit detailed (to include individual line
item costs for each operations and maintenance account) GFOQ cost reports
on a quarterly basis in order for Naval Facilities Engineering Command
officials to review costs for accuracy and compliance with budget limitations.
Management Comments. The Department of the Navy concurred and stated that
the Assistant Secretary of the Navy (Installation and Environment) will direct that
the current annual cost report requirement will change to a quarterly report
requirement. Further, the Navy will require that the associated costs be reviewed
and certified as to the accuracy of each charge.
2. We recommend that the Chief of Naval Operations direct the
Commander, Naval Facilities Engineering Command and housing officials to
initiate a complete review of all grounds maintenance costs to ensure that
costs are charged to the GFOQ occupant unless a waiver has been granted
and comply with current Navy guidance on grounds maintenance.
Management Comments. The Department of the Navy concurred.




                                    12
Appendix A. Audit Process

Scope
    Work Performed. We conducted the audit of management controls over
    GFOQ costs as a follow up to our previous audit, Report No. D-2000-071,
    “Maintenance and Repair of DoD General and Flag Officer Quarters,” January
    27, 2000. During the audit, we interviewed budgeting personnel, housing
    managers, and public works personnel from activities under different major
    commands throughout the Navy. We analyzed family housing cost
    documentation for 40 Navy GFOQs, along with the computer financial
    processes for tracking GFOQ costs for FYs 1998 and 1999. We conducted
    reconciliations of costs reported on the GFOQ quarterly cost reports to the
    supporting documentation.

    Limitations to Scope. We limited the scope of our review to Navy-operated
    GFOQs, because the Navy’s average annual maintenance and repair costs were
    approximately 50 percent higher than the other Services.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. Although the
    Secretary of Defense has not established any goals for Information Assurance, the
    General Accounting Office lists it as a high-risk area. This report pertains to
    Information Assurance as well as to achievement of the following goal,
    subordinate goal, and performance measure:

           FY 2000 DoD Corporate Level Goal: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (00-DoD-2). FY
           2000 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (00-DoD-2.3). FY 2000
           Performance Measure 2.3.1: Percentage of the DoD Budget Spent on
           Infrastructure. (00-DoD-2.3.1).
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.


Methodology
    Use of Computer-Processed Data. To achieve the audit objectives, we relied
    extensively on computer-processed data contained in the Fund Administration and
    Standardized Document Automation (FASTDATA), Standardized Accounting

                                        13
       Reporting System (STARS), Flag Track, Maximo, and other automated databases.
       Our review of system controls and the results of data tests showed discrepancies
       that cast doubts on the validity of the data. However, when the data are reviewed
       in the context of other available evidence, we believe that the opinions,
       conclusions, and recommendations in this report are valid.

       Universe and Sample. To achieve the audit objective, we judgmentally selected
       GFOQs at seven different activities. At each activity we reviewed a judgmental
       sample of GFOQ expenditures for FYs 1998 and 1999.

       Contacts During the Audit. We visited or contacted individuals and
       organizations within DoD. Further details are available on request.

       Audit Type, Dates, and Standards. We performed the financial-related audit
       from January 2000 through August 2000, in accordance with auditing standards
       issued by the Comptroller General of the United States, as implemented by the
       Inspector General, DoD.


Prior Coverage
       During the last 5 years, the Inspector General, DoD, the Naval Inspector General,
       the Naval Audit Service, and the Air Force Audit Agency each issued reports on
       GFOQs.

Inspector, General, DoD
       Inspector General, DoD, Audit Report NO. D-2000-071, “Maintenance and
       Repair of DoD General and Flag Officer Quarters,” January 27, 2000

Navy
       The Office of the Naval Inspector General, Report of Investigation, “Senior
       Official Case 990441; Alleged Misuse of Operating Funds for Maintenance and
       Repair of Flag Officer Quarters,” October 27, 1999 (FOUO)

       The Naval Audit Service, Audit Report NAVAUDSVC P-7520.1, “Management of
       Family Housing Operations and Maintenance Resources,” December 4, 1998
       (FOUO)

Air Force
       The Air Force Audit Agency, Audit Report 99052030, “United States Air Force
       Academy General Officer Quarters,” October 26, 1999




                                           14
Appendix B. Definitions and Terms
   Financial Management Regulation, volume 6, “Reporting Policy and Procedures,”
   provides DoD Components with uniform procedures for consistently identifying,
   accumulating, and reporting family housing program costs. Those uniform budget
   program accounts include furnishings, maintenance of real property facilities,
   services, and utilities, and are defined below.

   Furnishings. The furnishings account accumulates costs for initial acquisition,
   maintenance, repair, and replacement of furnishings, furniture, movable
   household equipment, and authorized miscellaneous items.

   Maintenance of Real Property Facilities. The maintenance of real property
   facilities account is a summary account for consolidating costs accumulated in
   the dwelling, exterior utilities, other real property, alterations and additions, and
   various other subordinate accounts.

   Maintenance and Repair. NAVFAC P-930 defines repair as the restoration of
   real property to a condition that it can be effectively used for its designated
   purpose and that does not increase the property value. Parts used in the repair
   should be approximately equal in quality and size or capacity to the item
   removed. There are also specific cost limitations on the amount of M&R allowed
   per year for each GFOQ.

   GFOQs Maintenance and Repair Cost Limitation. According to the
   OPNAVINST 11101.19E, the maximum dollar amount that can be spent for
   GFOQ M&R expenses per year is $25,000. This instruction also allows for
   exceeding the limitation subject to prior congressional notification and subsequent
   approval. The intent of the $25,000 limitation is not to force activities to obligate
   or expend the $25,000 amount per GFOQ as a requirement each year, when work
   is not necessary. Rather, funds are simply available if work is required to
   maintain the GFOQ to the standard that a “prudent landlord” would do in a
   similar circumstance.

   Grounds Maintenance. Grounds maintenance, as defined by DoD and Navy
   guidance, includes cutting the grass, raking the yard, pruning, and trash removal
   at assigned living quarters.

   Improvements. Improvements are defined in the NAVFAC P-930 as
   “alterations, conversions, modernization, or additions-expansions-extensions for
   the purpose of enhancing rather than repairing a facility or system.” There is also
   a cost limitation on the amount of improvements allowed per year.

   GFOQs Improvement Cost Limitation. The OPNAVINST 11101.19E states
   that any alterations, additions, or improvements to a GFOQ above $3,000
   annually must have prior congressional approval. This $3,000 amount is included
   in the $25,000 M&R limitation for GFOQ expenditures.



                                         15
Services. The services account accumulates costs for such services as refuse
collection and disposal, fire and police protection, extermination services, and
custodial services performed in common service areas such as snow removal,
street cleaning, and municipal type services.

Utilities. The utility operations account is a summary account for accumulating
costs for utilities consumed in family housing. This account excludes the costs of
M&R of utility systems identified to the family housing property covered under
the maintenance of real property facilities account.




                                     16
Appendix C. GFOQs Reviewed

 Major Command and Activity                               GFOQ
Commander-In-Chief, Atlantic Fleet
   Naval Base Norfolk                F-35E                       F-35W
                                     G-30                        G-31E
                                     F-32                        M101
                                     SP-20                       SP-22
                                     A Little Creek

Commander-In-Chief, Pacific Fleet
   Naval Base Pearl Harbor           A                           C
                                     23 Makalapa                 28 Makalapa
                                     32 Makalapa                 34 Makalapa
                                     35 Makalapa                 K Ford Island
                                     201 Marine Corps Barracks

   Naval Base San Diego              A NAS North Island          1401 Orion, Miramar
                                     B NAS North Island          1402 Orion, Miramar
                                     BA NAS North Island         BC NAS North Island
                                     B Naval Medical Center      V NAS North Island
                                     303 Silvergate              355 Silvergate

Commander Naval Education and
Training
    NAS Corpus Christi               SOQ-1                       SOQ-11
    NAS Pensacola, FL                A                           4

Commander Naval Reserve Forces
   NSA New Orleans                   A                           D
                                     C                           E

Naval District Washington
   NSA Washington, D.C               B                           R
                                     G                           V




                                           17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Naval Audit Service
Commander, Naval Facilities Engineering Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Atlantic Command
Commander in Chief, U.S. Pacific Command
Deputy Commander in Chief, and Chief of Staff, U.S. Pacific Command

Other Defense Organizations
Director, Defense Logistics Agency
Director, National Security Agency/Central Security Service
   Inspector General, National Security Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          19
Department of the Navy
Comments




                     21
     Final Report
      Reference




     Revised
     Page 11




22
     Final Report
      Reference




23
     Final Report
      Reference




24
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

Paul J. Granetto
Wayne K. Million
Stephen T. Hampton
Eleanor A. Wills
Wei K. Wu
David L. Spargo
Gary A. Clark
Lynne M. Thomas
Paul M. Gach
